 Department of Health and Human Services

            OFFICE
    INSPECTOR GENERAL





   MEDICAID EXPANSIONS FOR

PRENATAL CARE: STATE AND LOCAL

       IMPLEMENTATION





           7f.
                 Richard P. Kusserow
                 INSPECTOR GENERAL
                     OEI- 06- 90- 00160
                     EXECUTIVE SUMMARY


Ths inspection descnoes State and loca effort to implement eligtoilty expansions
for Medicaid-covered prenata cae and to overcome barers to accssibilty and
avaiabilty of prenatal cae.

BACKGROUN

Aimed at reducing the incidence        of inant mortality and low birweight,
                                                                         Federal
legislation allows more women to meet the income criteria for Medicaid-covered
prenatal care. States are now mandated to set income eligIoilty at 133 percent of
the Federal povert level , guarantee contiuous eligtoilty unti 60 days post partum
extend the presumptive eligtoilty period up to 60 days for States choosing ths
option, use special pregnancy-related application form, use application sites other
than where Aid to Famies with Dependent Chidren applications are processed , and
eliate paternty establihment as a precondition to receive Medicaid-covered
prenatal care. Additional Federal options allow States fleXloilty to set an       income
standard up to 185 percent of the Federal          povert level , use of presumptive eligibilty
to provide temporary ambulatory care while formal Medicaid determations are
being made , and to disregard assets when makig eligibilty determinations.

MEODOLOY
We conducted site visits in 19 communties withi eight states (Alabama , Arkansas
Colorado , Florida , Maryland, New Jersey, New Hampshie, and Pennylvania).
Providers , eligtoilty supervsors and workers, and prenatal clients were intervewed
and a number of implementation issues were identifed. We also conducted a
national telephone survey of 51. State and Distrct of Columbia offcials responsible
for implementig the eligtoilty expansions. Along with self-reported inormation, we
analyzed applicable Federal and State laws , policies and procedures , plus reviewed
outreach materials and application forms.

FIINGS
(All   figs ar      based   on   info17tin as of   Jan 1991)
       Al State Have SetTheir Income Stadad at 133 Percent of the Federa
       Povert Leel. In Addition, Man Oters Have Endors Optiona ElgIoilty
       Exanions.
       . 46   States waive the asset/resource test.
  Some State Are Takg Positie Steps to Addres Problems with Acc and
  Awibilty of Medcad-Cered Prnata Cae.
  . Comprehensive   client outreach materials

  . Streamled and    simplied application processes
    Provider participation incentives

    Alternative health care providers



  . Case managers   and enhanced prenatal care packages

    Integrated data collection

  Potential Cost Reductons Wil Exce $97 Mion          if Neonata Intensive Cae Is
  Reduce by Just 1 Percent.



RECOMMATIONS
 Deelop A Comprehee Oueach Strteg.
 Simplif and Streaml     th Applitin Pres
                        Prvi Parttin.
 Develop Incenes to Inceae

 Clri Poli and Monior Impletin of Medid                 Exnsns.
 Deelop Data Collctn Syst and Evalutin Preses to Mease                Pres
 th Eligiil Exnsns and Fut Prm Effect
 Esblih a Celied Authori wi Ful Resnsil                  for   Impleg

 Exansns.

                                          y ......................................

                                     ......................................................
                                                       ...................................
                                                              . . . . .. .. .. .. ........................................ ................:."
                  . . . . . . . . . . . . .. .. .. ... ... ... ...............
                                                                             ........................................................        .............                           . ..
                                                                                                                                                                          .. ... .. ..
                                                                                                                                    . ... ... ... ... ... ... ... ... ... .             . .. ..  ... .... .. ... ...
                                                                                                                                                                                              ....                .....




                                 TABLE OF CONTENTS

INODUCTON
 Purpse. .. . . . 

 Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

 Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 


FIINGS
 (Al   fi       lI baed              Of     infom as of It1                                             1991)

 Al States Have Set Thei Inmme Stada at                                                       133      Pert of the Federa Pov Le
 Adtion, Ma Oth Ha                                    Endors OptiDB Elgibilty                                                               ions . . . . . . . . . . . . . . . . . ..


 Howr, Signcat Prble                                     Prnt New Elgible Women frm Recivg
       cUd         RdPn                                        .............................................. 5
     Client Outreach Is Inadequate

    Women Are Not Completing the Cumbersome Application Proces. . . . . . . . . . . . . . . 


    States Have Difculty Reciting Prenatal Care Providers. . . . . . 


    Adintrative Complexties Discourage Broader Use of Presumptive Eligibilty

    Lack of Staffg Hiders Procing of New Elgibles in Most States


    States Request More Timely Inormation and Tring from HCFA . . . . . . . . . . . . . . . . .. 


HCFA and !dost State Caot                                !deaur the Prgr and Impa of the &pions                                                                                         ...... .. 11

Some State      Ar Takg Positi Steps to Addr Prblem with Aa                                                                                               and
Avabilty of         cUd-C Prnata Ca
    Several States Have Develope Comprehensive Clent Outreach Materials


    Several States Have Streamlined and Simplified Their Application Proces. . . . . . . . 


   Some States Offer Provider Incentives to Increae Panicipation . . . . . . . . . . . . . . . . . 


   Many States Use Alternative Providers


   Some States Use Cae Managers and Provide Enhanced Prenatal Care Packages. . .

   Some States Have Integrted                              Data Collecion Points                                  to Evaluate Future Outcomes. . . . . .. 16

Potenti Cot Reductons
Is Reduce by Just 1             Pernt.
                                             Wi         Ex $9 Mion if Neonata Intensiv
                               INTRODUCTION

 PUROSE
 Ths inspection     describes State and local effort to   implemnt eligibilty expansions for
 Medicaid-covered prenatal care and to overcome barrers to accessibilty and
 availabilty of prenatal care.


 BACKGROUN
 Congressional concern about the health status of pregnant women has led to
 signcant Federal  and State Medicaid eligibilty expansions in recent years. (See
 Appendix B. ) The impetus for these reforms stems from 1) the United States ' poor
 showing among other nations in regard to infant mortalityl; 2) concern over the
 excessive health care costs to maintain low birhweight babies vis-a-vis the low cost of
 providing prenatal care%; 3) growig numbers of low income women who are
 uninsured for pregnancy-related health care ; and 4) unsatisfactory progress in

 achievig the 1990 Health Objectives for the Nation



Today, states are Federally mandated to extend pregnancy-related care to women
who have incomes up to 133 percent of the Federal povert level , with an option to
use 185 percent of the Federal povert level. (See Appendix C. ) Other Federal
mandates affecting ths group are:

       eliminating paternty establishment as a precondition to receive Medicaid-
       covered prenatal care;

       guaranteeing continuous eligtoilty throughout pregnancy until the end of the
       month in which 60 days postpartum occurs, regardless of income changes;

       applying at sites other than where Aid to Family with Dependent Children
       (AFDC) applications are normally processed (effective July 1 , 1991);

       using specific application forms for Medicaid-covered prenatal care (effective
       July 1 ,   1991); and

       extending the time period for presumptive eligibilty if a State chooses this
       option to provide temporary ambulatory care while a formal Medicaid
       application is being processed (effective July 1 , 1991).

States also have the option to waive an asset test when determining a pregnant
woman s income.
  5) offerig traing and techncal assistance to states wishig to unplement
  presumptive eligibilty, targeted case management, servces for pregnant teenagers
  using EPSDT, additional care to high-risk mothers and inants through freedom-of­
  choice waivers , as well as other available options.


 Durg 1990, HCFA developed a marketig gude for HCFA Regional Offces to use
 with State legislative , governent, and fiance staff; held thee multi-regional/tate
 maternal and inant health conferences; and entered into a contract with the
 American College of Gyecologists and Obstetricians (ACOG) and the Public Health
 Servce (PHS) to develop gudes to promote provider recrutment and retention.

 Healthy Start

 The Healthy Start program targets 10 project areas with exceptionally high rates of
 infant mortality. Some of the specifc objectives of this intiative are: 1) enrollg
 more women in prenatal care durig their fist trimester; 2) decreasing the number
 of low birhweight babies; and 3) decreasing the infant mortality rate.

 The   Secretary s   Task Force on   Minori Health
The Task Force on Minority Health was created to 1) identif and coordinate HHS

programs that serve minority populations ; 2) address barrers to improved health

among minority populations; 3) identify successfu models of health interventions in
specific minority populations; and 4) recommend actions to increase the number of

minorities served by HHS , plus ways to improve the quality of servces aleady

delivered to these groups'. One of the major areas of Task Force concern is the

delivery of servces to pregnant women.

Recent Ofce of Inspector Genera (OJQeport

A recent management advisory          report "Access to Medicaid- Covered   Prenatal Care
(OEI, October 1990), presents        preliar fidigs regarding barrers to State and
local implementation of Medicaid prenatal care expansions. Effective techniques
used by states to implement these expansions were also highlighted. Another study
assessed the implementation of the Comprehensive Perinatal Care Program (CPCP),
an intiative of the PHS (OEI, May 1990). The OIG recommended that the PHS
reexamine its method of allocating CPCP funds to assure community and migrant
health centers in areas with high inant mortality rates receive this support. Finaly,
another study examined a local program to reduce infant mortality. Findings
indicated that successful implementation strategies should include targeting client
outreach , conducting risk assessments , ensuring adequate clinical servces , and
fostering indigenous community leadership (OEI, July 1989).
                                       FINDINGS

Th   fo
                             an ba       on   Douuati u of JanUl 1991.
~ AI STATE HAVE SE
  OF TH FEER POVETY
                                        1HLE
                    INroME STANAR AT 133 PERCE
                         IN ADDmON, MA
     HAVE ENRSED OPTONAL                        EIGmll EXANSIONS.
  An Overheg Majori of
  Guaranteig
                            St
                      Cont Elil.                Have Waived th Aset/Resour Tes        an Ar

     Fort-six States have      waived the asset/resource test and 45 States guarantee
     contiuous eligtoilty unti the end of the month in which 60 days postpartum
     occurs. (Since the tie of our data collection, States are now mandated to
  contiue benefits unti the end of the month in which 60 days postpartum
  occurs. )

  Twen10ur States Voluri                Ered th Mandte Fedl             Incme Standrd Used
  to Deter           Eligiil.
  Eighteen States use an income standard up to 185 percent of the Federal

  povert level       to   determe eligibilty; one State is using 155 percent of the
  Federal povert          level; four at 150   percent of the Federal   povert level; and one
  at 140 percent of the Federal           povert level.
  Twen-si
  Prta
                 State
              Care
                          Ar Usig Presptie
                         (Over one-
                                                   Elil to Prvi          Temporary Amultory
                                      thd of the States without presumptive eligtoilty
  report expedited formal eligtoilty determinations.

  Appendi E compares States ' implementation of the eligtoilty expansions , as of
  January 1991. Shown are implementation dates for presumptive eligtoilty, asset
  test waiver, contiuous eligibilty, and Federal income standards used to
  determne eligtoilty, plus an indication of States reportg expedited eligtoilty
  determations.

~ HOWEVE SIGNICA PROBLE PREVE NEWLY EUGmLE
  WOME FROM RECEIVG                           MEICAVE PREATAL
  Cl Oueach Is Inate
 Few States have coordinated. ongoing. and targeted client outreach. Although
 the majority of State respondents (84 percent) report some efforts to heighten
 awareness of the eligtoilty expansions , it is neither intensive nor extensive. Most
 States rely on the ' welfare grapevie " (81 percent) as a primary means of
                                                       ; "




  want(ing) to disclose their income                       (not) really want(ing) prenatal care anyway
  and women             tending to be afraid of anything                   offial




  Lengthy. complex forms .            Only 17           States use an application form tailored for
  Medicaid-covered prenata care.                       Formal applications ca vary in length from
  one page to over 30 pages. One respondent from a State using a 34-page
  application form described it as                    somewhat complex 





 In several local welfare offces , some women only wanting Medicaid-covered
 prenatal care felt coerced into applyig for additional public assistance programs.
 Their frstrations are exemplified by such statements        (1) wasn t sure what toas:

 fil out because all I wanted was Medicaid for prenatal care. I didn t want Food
 Stamps or AFDC. I didn t even start filing (the applicatin form) out. I looked
 through it and said ' GADS               II or

                                      We knew we weren t going to need this
 (Medicaid-covered prenatal care) once my husband had a job. The social worker at
 social services kept pushing us to sign up for other programs and all we wanted was
 (Medicaid-covered prenatal care). All this pushing made me not want to go back;
 they didn t seem to understand all we wanted was (Medicaid-covered prenatal
 care).




Multiple application sites and appointments . During our local visits , 87 percent
 of the presumptively eligible women reported changing sites to reapply for
continued Medicaid-covered prenatal care, with 91 percent of this group going to
a local welfare agency. In most caes , these women were not able to complete
this task on the same day they were determined presumptively eligtole. Before
an intervew with a formal application intake worker, they either made an
appointment and returned another day or first attended an orientation.

As pointed out by one State                Appointments for formal applicatin are
                                        respondent,

set arbitrarily and the women do not get to choose their appointment tie. This
additional step is especially burdensome for working women and parents who
must rearrange their work schedules. Over half of 92 local supervsors , eligibilty
workers , and providers confied ths delay as a problem for women seeking
prenatal care. Even though most local sample States (6 out of 8) report
outstationing eligibilty workers in places where women are more likely to seek
prenatal care , we did not observe its widespread use. The majority of eligibilty
workers (31 out of 41) and supervsors (9 out of 15) confirmed this finding.
Also , while over hal of the State respondents report outstationing eligibilty
workers , it is usually at selected sites.

 Welfare stigma " Qosely associated with requiring women to go to the local
welfare office to formally apply for Medicaid-covered prenatal care is the fear
of being thought of as a welfare recipient. Such comments by State respondents
    The welfare stigma is a big problem. Underemployed, intact families don t want
                                                              ; "




  concern is expressed in such statements as: 

                                                                OB' s   are settg quotas on the

 number of Medicaid clients they will acceptll Iwe have) less than a
                   25    percent

 physician partipatin rate lin our State)";        and    'Doctors claim           they have plenty of
 paying customers so they don    t need     Medicaid   patients. "

 Several State respondents think providers 'attitudes toward II welfare women " limit
 their acceptance of Medicaid patients. They believe providers view women as
 enterig prenatal care later in their pregnancy than non-welfare patients, not
 being as cooperative , and not keeping their appointments as well.


 Some providers have problems with presumptive eligibilty. Eight of the 26 State
 respondents from presumptive eligibilty States report problems with some
 providers not making presumptive eligibilty determinations; 10 of these 26 say
 some providers are not willng to accept presumptive eligibilty cards.

 During the site visits , we found that restricting presumptive eligibilty coverage to
 ambulatory care was a problem in some instances. If the need arises for hospital
 inpatient care (for such complications as miscarrage, premature delivery, or an
 ultrasound), a presumptively eligible woman is not covered. As pointed out by
one provider affected by this situation and who no longer accepts presumptively
eligible women 'Most providers feel morally obligated to offer the full-range of

services for women once they are in (his/her) care. My
                                                                          fit
                                                              three presumptively

eligible patients all had to be admited to the hospital: one delivered, one needed a

    & C 
     dilatin and curettage); and one miscarrd.
Limited access to eligtoilty verification systems !tampers provicter partfcipation

and creates biling problems . Although 92 percent of the States have an

automated verication system ,                     only 53 percent allow provider access. One-third

of the States report ths is a problem for providers. Also , restricting provider

access increases the lieliood of bilg errors, especially for servces rendered
durig the presumptive eligibilty period.
Reimbursement rates are low and reimbursement turnaround is slow
                                                                                             . Eighty-two
percent of State respondents say low                    reimbursement rates contribute to provider
dissatisfaction; over 50 percent say slow turnaround for reimbursements is also a
disincentive.

Liabilty issues hinder participation . Six-nine percent
                                                          of the State respondents
think providers don t participate in Medicaid-covered prenatal care because of
the high cost of liabilty insurance. Also , 61 percent of the State offcials say
providers ' perception that Medicaid clients are more likely to sue makes it
diffcult to recrut providers.

 eligtoilty incorrectly so that 
       workers must identify rejected cases and redetermine
 eligibilit. "




 Despite these complaints about slow policy communcation and lack of trainng,
 80 percent of the State respondents do fid HCF A helpful in providing technical
 assistance. Also , when policy guidance is issued , 71 percent of State respondents
 report it is usually clearly wrtten.

However, when asked how HCF A could be even more helpfu, the State offcials
request clearer and less complicated policy statements; pre-printed State Plan
amendments; and , as one administrator indicated 'HCFA should coordinate the
sharing of informatin among States.

HCFA AN MOST STATE CANOT MEUR                                    TH PROGRE
IMACf OF TH EXANSIONS.
Stte-Reported             Data on   Prm Parttin Appers Incomple and of
Qunable Acccy.
Respondents from 22 States could not or did not estimate the number of new
eligibles served , or to be served , in 1990 and/or 1991. (See Appendix G. ) Only
17 State representatives could report the total number of formal applications
made by new eligibles for any (or all) of the past four years. Additionally, 10 of
the 26 respondents from presumptive eligibilty States do not keep data on the
number of women currently presumptively eligible. Also, just 11 representatives
from presumptive eligtoilty States submitted the number of presumptively
eligible women who were subsequently denied formal eligtoilty.

Along with some of the State respondents, we question the accuracy of this
incomplete program participation data. A cursory examination of Appendix G
raises several concerns about the validity of the provided data.

                      Several of the States with large populations do not report data, and
                      in other States some of the estimates do not seem to be consistent
                      with the size of their Medicaid populations.

                      We are concerned that the reported increases in non-AFC
                      women may include not only new eligibles but also signifcant
                      numbers of AFC-eligible women who are being enrolled more
                      rapidly under the new, less restrictive eligibilty requirements. This
                      concern was supported by the four State representatives who
                      submitted data on the number of new eligibles who later qualified
                      for AFC. For example , in one State over two- thirds of the new
 postparum cae (Ginsburg, Lewis-Idema , and Pettigrew       1989), it is not surprising
 they cannot report   th inormation. Even when they can, only 16 State
 respondents could identi    the agency   collectig the number of prenatal visits.

 Only 20 State representatives claim they can provide information about the
 trester a newly eligible woman enrolls in prenatal care. Of these ,  only three
 States actually submitted this requested data. Also, almost one-fourth of the
 State respondents say they do not capture race/ethcity for the new eligibles.
 (See Appendix F.

 Local sites also reflect problems with collecting data. Almost two-thirds of
 51 local supervsors and providers do not have access to completely
 computeried data collection systems. Even when they do , new eligibles are not
 usually distinguished from AFC-eligible pregnant women.

 SOME   STATE     AR TAKG POSIT STS TO ADDRE
PROBLE OF ACC AN                   AVAIIL OF MEICAI-CVE
PREATAL CAR12

Severl States Have Deelope Comprehe              Cl Oueach Materls.
Unique logos are being used to heighten awareness of the benefits of receiYi
early and continuous prenatal care . Distictive logos used to identify a State
outreach campaign are "HealthStart" (New Jersey), "Healthy Start" (Ohio
Wisconsin , and Massachusetts), "Baby Your Baby" (Utah); "MICHcare
(Michigan); and "Baby Care " (Colorado). These themes are found throughout all
their outreach materials.



Materials descnoe the benefits and availabilty of prenatal care . In a
Massachusetts' "Healthy Start" brochure , Medicaid-covered prenatal care servce
is not referred to as a welfare program but rather as a way to receive health
insurance for pregnancy-related care. It also lists a toll-free telephone number
so pregnant women can locate a doctor or nurse-midwife and provides
information about food assistance programs and other community resources.

Current income eligibilty levels are clearly stated in brochures developed by
Michigan. From ths inormation , a woman can quickly see if she meets the
income and family-size qualifications used to determne eligibilty for Medicaid-
covered prenatal care. Documentation required at the time of application and
available enhanced servces (transportation to provider sites and educational
classes) are also listed. A separate two-sided leaflet describes Michigan s 24-hour
prenatal care telephone lie which provides information about servce benefits
and availabilty, as well as information on WIC.
  Arkansas and Louisiana to simpli the application process; however, the women
  are stil requied to change application sites.
  Some States are e'iediting formal eligtoilty determinations once alLhe     reQu
 documentation is received . Over one-third of the States report expedited formal
 determations , with Alaska and Oregon reporting five day processing times.
 Other States claiming to expedite formal determinations are Virginia (10 days),
 Vermont (10 days), West Virginia (13 days), Arona (14 days), Minnesota
 (15 days), and Washigton (15 days).
 Eligtoilty workers are being outstationed by some States. Some of the
 alternative sites that States are using to outstation eligibilty workers include:
 high-volume hospitals (Florida, Louisiana , Mississippi , Missouri , North Carolina
 Texas , and the District of Columbia); perinatal clinics (California); and WIC sites
 and health offces (Vermont). Ths approach puts eligibilty workers in locations
 where pregnant women are most likely to seek prenatal care and , also , separates
 the application site from the welfare offce , thus helping diffse the ' 'welfare
 stigma.

 Some States Ofer   Prvi Incenes to Inceae Parttin.
 Special efforts are being made to recruit providers .   Currently, 75 percent of the
 States report effort to   encourage new providers to accept women eligible for
Medicaid-covered prenatal care.    Many States are conducting educational training
to dispel negative provider attitudes toward ' 'welfare '' women. States are meeting
with medical societies and physician groups , forming task groups and conducting

provider surveys to identify barrers to provider participation.


Connecticut has provider-relation representatives to assist with problems
encountered with Medicaid patients; Minnesota has hired a staff person
designated to handle provider problems. Maryland and Texas use nurses to
recruit providers. Michigan has billng representatives who help doctors file
Medicaid claims.

Some States have increased reimbursement rates and provide assistance with
liabilty protection . The state of Washington allows higher reimbursement rates
for primary care clinics located in distressed areas. Louisiana reimburses at
90 percent of private insurance rates. Maine offers $5000 - $10, 000 supplements
toward medical insurance if obstetricians and gyecologists agree to practice in
areas where there are provider shortages. A state legal defense fund to help
with malpractice litigation has been established in Missouri. Florida extends
sovereign immunity (legal protection) to providers of Medicaid servces.
POT        REUCTONS Wl EXCE
                 COST
NENATAL INSIV CA REUCE               IS
                                                           $97 MION
                                                       BY JUST 1 PERCE.
The   li   between inant   mortlity, low birweight, and lack of adequate prenatal
care has been well- documented (Chdren s Defense Fund 1989; Committee on
Governent Operations 1988; GAO 1987). A woman who does not receive
early and continuous prenatal cae triples her risk of deliverig a low birhweight
baby (GAO 1987). Among low birhweight babies, about half require expensive
neonatal intensive care , costing from $12, 000 to $150 000 per child (Offce of
Technology Assessment 1987). Unfortunately, low birweight babies are
40 times more likely to die durig their fist week of lie (GAO 1987). Even if
low birhweight babies survve , they are at signficantly increased risk of suffering
lielong physical or mental disabilties.

Low Birhweight Babie Are Ver Costly.

Low birthweight babies account for a very disproportionate share      of the costs of
maternity care paid for by Medicaid. As shown in Figue 1, the Alan
Guttmacher Institute (Torres and Kenney 1989; Kenney, Torres , Dittes , and
Macias 1986) has estimated that six percent of all Medicaid-subsidized deliveries
require expensive neonatal intensive care which comprise fully 30 percent of
Medicaid maternity care costs. The average cost of neonatal intensive care is
$15 814, as contrasted with a normal birweight delivery which costs $2 948.

                                    Figue 2



                             LBW DELIVERIES
                 CAUSE DISPROPORTIONATE COSTS
           Percent

           100             94%



                                                            Percent of Cost

                                           2f/o	               Percent of
                                                               Deliveries

                     Normal	                  LBW
                     Delivery               Delivery
   Source: Alan Guttmacher Institute figure based on the estimated

           cost for delivery and care for a baby (Kenney et ai, 1986).

                                 FJI 2



               RE MEAD                LOW 8IRTHGHT

               BABIES SAVES LIVES AND MONEY


Low Biweig,t Baby
                                   Normal Size Baby
     verage Medicaid
                                Average Medicaid
    delivery cost                                     delivery cost




                    $1,950                      $3,533

                                According to an Alan  Guttmacher
                                Institute study (Torres et al. 1989;
                                Kenney et al. 1986), Medicaid subsidizes
                                deliveries for about 630, 000   low income
                                women each year. Six percent of all
    $97. 1 million              Medicaid deliveries require neonatal
                                intensive care and cost an average of
                                $18, 950 amounting to a  total cost of
Amount saved if number of low   $716 milion.   If the number of low
birthweight babies requiring    birthweight babies requiring neonatal
neonatal intensive care is      intensive care is reduced by just
reduced just                    $97. 1 milion wil be saved.
              testing, and even grocery stores , laundromats , and shopping centers to
              locate new eligibles.

         - Use    communty residents , women who have received Medicaid-covered
              prenatal care and AFC recipients in the Federal Jobs Opportunty
              and Basic Skils (JOBS) program as outreach workers.

 ~ HCFA 
         could

      . Collaborate with the National Center for Education in Maternal and
        Child Health , supported by PHS , to serves as a repository and distnoution
        center for State and nationally- developed Medicaid-covered prenatal care
        outreach materials. The HCF A central offce , coordinating with regional
        HCF A and PHS staff, would need to periodically identify, collect , and
        issue a compendium of inormation to the National Center. State
        Medicaid and Maternal and Child Health directors would need to be
        notified of available materials and subsequent updates.

     . Clarify that          matching Federal funds are available to assist with State
        effort to conduct         client outreach.

     . Coordinate outreach effort with the                   Healthy Start National Public
        Information Campaign .                  Such effort should   stress the benefits of
        Medicaid-covered prenatal care as preventive health care rather than
       welfare-related assistance.

~ States 
      could

    . Create a unique and                    readily identifiable theme and "logo " for the prenatal
       care campaign.

    . Establish a statewide toll-free hotline , coordinated with existing MCH
      hotlines , to provide information about access and availabilty of Medicaid-
       covered prenatal care.

Simpli and            Streame the Application Proc.
~ HCFA should:

   . Ensure , in reviewing and approving State Plans , that States comply with
      the requirements to:

      - Use outreach               locations other than welfare offces to accept and begi
             processing applications for Medicaid-covered prenatal care.
            - Provide sufcient   reimbursement to ensure adequate numbers of
              providers are available to deliver Medicaid-covered prenatal care.

            - Specify the noninstitutional   obstetrical payment rates in Medicaid State
              Plan amendments.

           - Provide    payment for servces rendered by certified nurse practitioners
              or certifed family nurse practitioners   if they are authoried under State
              law to perform those servces.

  ~ PHS should:

      . Use loan repayment and the National Health Servce Corp recruitment
           programs to increase the number of doctors , nurses , and other health
           professionals servng pregnant women.

 ~ States sbould:

      . Survey providers to assess bow many are both available and willng to
        deliver Medicaid-covered prenatal care.

     . Set reimbursement rates for Medicaid-covered prenatal care at a level
       suffcient to ensure that an adequate number of providers are available to
           deliver this care.

     . Promote expanded use of alternative health care providers to deliver
           routine Medicaid-covered prenatal care.

     . Assess the feasibilty of assisting providers with liabilty insurance
       increase their partcipation in delivering Medicaid-covered prenatal care.


    . Alow provider access to state eligtoilty verication        systems.

~ HCFA 
        could

    . Develop a legislative proposal to guarantee temporary Medicaid coverage
      until the end of the presumptive eligibilty period. This coverage would
      allay provider apprehensions of havig to continue care for women later
      found ineligible for full Medicaid benefits.

    . Develop a legislative proposal authoriing full Medicaid benefits for
      pregnancies deemed at high-risk during the presumptive eligibilty period.
       . Pending the development of such a system to track participation rates
         consider using probabilty samples to estimate the number of newly
             eligible women enrolled in Medicaid-covered prenatal care.

       . Work with MCH, ACF, State Medicaid directors and State public health
         offcials to develop     minimum reportng requirements to    measure the
         effects of the eligibilty expansions on improved birh outcomes. Minimal
         data elements should include: the health status of all partcipants
         (substance abuser or medically high-risk pregnancy); demographic
         inormation (age , race , marital status , income, family size , educational
         level , and employment status); trimester enrolled for prenatal care; the
         number of prenatal care visits completed;                     bir
                                                             outcomes (live or dead);
         and the baby s birhweight. Also, to avoid duplication of effort , HCF A
         should coordinate with the PHS Interagency Committee on Infant
         Mortality (ICIM), Data and Surveilance subgroup in its development of a
         Federal maternal and infant health data strategy.

 ~ States should:

      . Develop either a centralized data collection system                     or enter into formal
        agreements with other agencies to assure access to information needed
        for evaluating outcomes.

 ~ HCFA 
        could

     . Work with MCH, ACF, State Medicaid directors , State public health
       offcials , and the State Bureaus of Vital Statistics to assess the potential
       of linking existing databases , e.g. , eligtoilty, medical payments , vital
       statistics , to measure both participation rates and outcome measures.

     . Plan and seek funding for a multi-year                       evaluation of the effectiveness of
       the eligibilty expansions on improved birth outcomes. The evaluations
       should be structured to permit separate analysis of women considered at
       high risk (substance abusers , medically high- risk , etc.

~ States 
      could

    . Conduct an         evaluation of implementation effort and their subsequent
       impact on lowering infant mortality rates and the incidence of low
       birthweight babies. This could be done in conjunction with HCF A and
       other appropriate agencies.

                                       ENDNOTES


  In 1986, the United States place eighteenth worldwide for overall infant monality, behind such
  nations as Spain, Singapore , and Hong Kong. When considered alone, the black infant monality
  rate place the U. S. twenty-eighth , behind Cuba , Bulgaria , and Czehoslovakia , and tied with
  Poland , Hungary, Portugal, and Costa Rica (Children s Defense Fund 1989).

  Children s Defense Fund (1989) projec that between 1989 and the year 200,                approximately $6
  bilion will be spent in first-year     costs alone to care for low birthweight infants   whose mothers
  recive inadequate care during pregnancy.


 In 1985, one out of four women of childbearing age had either no insurance or , if insured, were
 not covered for maternty care. The uninsured women were almost three times more likely to
 get delayed prenatal care than women with private health inurance (Children s Defense Fund
  1989).
  Goals directly related to prenatal care, low birthweight , and infant monality are: 1) reducing the
 national infant monality rate to no more than nine deaths per 1 00 live births; 2) reducing
 infant monality rates for specfic subgroups and regions to no more than 12 deaths per 1,
 live birhs; 3) reducing the national incidence of low birthweight to no more than five percent of
 all births; 4) reducing the incidence of low birthweight for specfic subgroups and regions to no
 more than nine percent;     5) enrollng 90 percent of all pregnant women in prenatal care in their
 first trimester; 6) enrolling viually all women in a regionali system of primary, secndary,
 and tertiary care for prenatal, maternal , and perinatal health servce; and 7) ensuring all
                                                                                                     women
 have appropriately attended deliveries (Children s Defense Fund 1989).

 The Minority Health Initiative categori Blacks, Hipanics , Asian and Pacific Islanders
                                                                                        , and

 American Indians/Alaskan Natives as the predominate U. S. minority populations.


To develop the Minority Health Initiative, an interdepartmental workshop wa held
                                                                                 to identify
and recmmend how to improve exiting HHS servce and how to reach increaed numbers of
minorities. Representatives from each         Operating Diviion (OPDIV
(STAFIV were members. In addition, key informants from each and Staff Diviion
                                                            predominate minority group
met for an informal discuion to exchange idea on how servce delivery of HHS programs to
minority populations can be improved. A report wa submitted to the Secetary on the Minority
Health Initiative as an internal HHS docment on November 13 , 199.

Subsequent to our field work, OBRA- 90 mandated use of specal application form
                                                                                               for
Medicaid-covered prenatal care. Appendix F ilustrates some of the problems this new
legislation wa designed to resolve.

Transponation servce are available by invoking Section 1902(a)(8) of the Socal Security Ac
which guarantee an individual the opportunity to apply for medical asistance and be helped
with reaonable promptnes; Section 1902(a)(19) requires that this
that eligibilty for care and servce will be provided in a way that isgurantee  be safegurded and
                                                                      consistent with simplicity of
administration and in the best interest of the recpient; and Section 1903(a)(17) provides that
Federal matching funds are available for activities deemed necsary for the proper and effcient
administration of the State Plan. However, the State must 1) use the leat costly
                                                                                             mode of
transportation and 2) use any other available funding source(s)
                                                                         which provide transponation
without charge ,   e.   g., church groups or charitable organizations.
                      APPENDICES


Appendi       Glossary of Terms
Appendi B:    Signcant Legislative Changes
Appendi C:
   1991 Federal   Povert Guidelines for Pregnant Women
Appendi D:
   Methodology of Local Site Selection
Appendi E:    Coverage Options for Pregnant Women, as of January 1991
Appendi F:    Comparison of Select Information on Formal Eligibilty Forms
              as of January 1991
Appendi G:    State Reported Statistics--Estimations   for 1990,   1991
Appendi H:    References
Appendi I:    Sumary of HCF A' s Comments to Specific Recommendations
              and OIG' s Response
Appendix J:   Departmental Comments: Health Care Financing
              Administration , Public Health Servce , Administration for
              Children and Families ,   and the Assistant Secretary for Planning
              and Evaluation
                                      APPENDIX A

                                         GLOY OF
 Ai to Fam     with                   CI (AF:     Cah payments to eligible neey famies with
 dependent chdren to cover 00ts for foo, shelter, clothig, and other items of daily livig deemed
 necry by each State.
 Ambulto Cu           Refers to outpatient servce.

 Asun           Test    Wai  Asts and resource , e.g. , a car, home, capital gain, gif, or loan
 (Federal Regiter, Februry 20, 1991), are not counted when calculating a woman s income to
 determe eligibilty for Medcaid-cvered prenatal care.

 Contiuo1l EI"bDity Guarantee coverage for Medcaid serVce from the time a pregnnt women
 is formally accpted until the end of the month in which her 60 days post panum ocrs.

 Fe Pov Le A                 simplied version of the Federal Goernment' s statistical povert theshold
used by the Bureau of Census in accrdnce with Secon 673(2) of OBRA-81. The
guidelies are used by the HHS for
                                                                                           port  income
                                       administrative purpes. e., persons are clasifed as being either
above or below a set standard to determe eligibilty for public asistance. Effecive Februry IS,
1991, the 
 base- line povert threshold for a family of one is S6,620; a family of two, S8 88; a family of
three , Sl1 14O a family of four, S13,40; a family of five, $15,66 a family of six $17 920; a family of
seven, S20, 18O a family of eight, $2244 and for each additional member above eight
                                                                                          , S2,60 per
person. Financial eligibilty for Medicaid-cvered prenatal cae is based on percentage multiples , e.
130 percent or 185 percent of the guidelines (Federal Regiter, Februry 20 ,      1991).

High-Rik or     Ha-tRe Prt                 Women For     th study, women who are substance abusers
medcall high-rik,     teenagers ,                         thes
                                    and women in their mid-      or above are include in       th
                                                                                             category.
Int Monaty Rate A ratio used to repon the number of deaths among innts                    under one   year of
age per 1,00    lie binh.
           Prta Ca As defied by the Alan Guttmacher                               it is .poor or no
care and les-  th adequate care. Care is considered por if staned in the third trester,
                                                                   Intitute (1987:14),
                                                                                          or if there
had ben onl     one   prenatal viit and gestation wa 22-29 weeks , two viits and gestation wa 3031
weeks, thee viits and    gestation wa 32-33 weks, or four viits and gestation wa
34 weeks or longer. Care     is considered les than adequate if the fit   viit did not    oc   before the
secnd trester, or if there were only three prenatal viits and gestation wa 22-25 weeks , or four
viits and gestation wa 2629 weeks, or five viits and gestation wa 3031 weeks, or six viits and
gestation wa 32-33 weeks, or seen viits and gestation wa 34-35 weeks , or eight viits and gestation
wa 36 weeks or longer.
Lo Birght: Weight at bin that is les than five and one-half pounds.
Medcad-C Prta Ca A fied period of time in which a pregnant woman can recive
Medicaid servce.    She is eligible for these servce: 1) by viue of her income and family siz (see
Appendix C) or 2) by already being an AFC recpient. Benefits begin from the time a woman is
determined formally eligible unti the end of the month in which 60 days postpanum occrs. At the
end of this time period , if she nee continued Medicaid assistance , she must reapply and meet
AFC eligibilty requirements.
                                    APPENDIX B

        SlGNCA IBJSTI QlGES                                        TO EXAN           EUGmIL
               FO    MBICAVB                            PREATAL CA SEVICE
 Title XI of the   Sol Sety Act has ben amended through the: (Given th scope                  of   th stu,
 only thef ct of apions on Jnno/ car ar dicwsed alugh chages aff ct                      chin as w lL)
                Tax Equity and Fiscal Responsibilty Ac (rFR P.I- 97- 248) of 1982
                Deficit Reduction Ac (DEFR P.I- 98-369) of 198
                Conslidated Omnibus Recncition Ac (COBRA P.I- 99-272) of 1985
                Omnibus Budget Recnciiation Ac (OBRA P .L99- 509) of 1986
              . Omnbus Budget Recnciation Ac (OBRA P.I-l00203) of 1987
                Medcare CaWtrphic Coverage Ac (MCCA P.I-l0036) of 1988.
                Omnibus Budget Recnciation Ac (OBRA P.I-I01-239) of 1989.
                Omnbus Budget Recnciation Ac (OBRA P. I-I01-SOS) of 199.

 TEFR-8 allowed States to consider pregnant women as an optional eligibilty group under their
 Medcaid progrms. Both         DEF-8  and COBRA-85 mandated or permitted eligibilty exansions
 for new groups of pregnt women. Madated eligibilty included 1) pregnnt women who       met Aid
 to Families with Dependent Children (AFC) eligibilty standards for income and resource
 requiements; 2) a new defition      for a two-member family, i. e., the woman s unborn chid could now
be considered a member of the household; and 3) an exension of 60 days post panum eligibilty to
all pregnant women enrolled in an approved Medcaid plan, regardles of eligibilty group. Optional
eligibilty exended flexbilty to target pregnant women.

COBRA-8 als allowed State flexbilty                                   servce delivery sytems

                                               to modif exting Medicaid
(National Governors ' Asocation 1989).
without fit
                                             an option , States can use targeted
                                                As                                   ca
                                                                                      management

              obtaing a Federa waiver, thus permttig servce to pregnant women as a target

grup. Th      change lets Sta es offer enhance prenatal care benefit packages to pregnant women

without havig to offer the same servce to other groups of Medicaid recpients.

Though OBRA-8, States were given the option to rais the Medicaid income standard to
100 percnt of the Federal poert level and to waive an aset test when calculating a woman
income to determe her eligibilty. For States not waivig the aset test, the test used could be the
sae as or more liberal    th
                           the one under the cah asistance progrms. Additionally, States were
gien the option to guntee contiuous eligibilty throughout pregnancy until 60 days post panum,
regares of income chages. It al authori a period of presumptie eligibilty in which a
pregnt woman ca       recive ambulatory care  before being formally accpted for Medcaid.
Determtion is bas        solely on income and pregnancy verification.

OBRA-8 gave States fuer options to cover all pregnt women with family incomes under
185 percnt of the Federa poert level, as well as to impoe premiums on the eligibilty of a
pregnt women      whos   fa     income fell between     ISO   and 185 percent of the Federal povert level.
MCCA-8 mandated the income standard be set at 100 percnt of the Federal              povert level. It also
exended contiuous    eligibilty to all eligible pregnant women who would lose eligibilty beuse of
income changes.

OBRA-89 mandated the income standard to be set at 133           percent of the Federal   povert level , with
the option to increae it up to. 185 percent of the Federal povert level.
                          APPENDIX C

1"1 FEER POVETY INCOME GUIEL FOR PRAN WOME
      AL STATF CECEP ALASKA AN HAWAl, PLUS D.

    Mandate :    133 Percent of 1991 Federa Povert Income Guidelies


     Famy Siz                        Anua Income                              Monthy

                                      $ 8, 804.                               $ 733.
                                           810.40                                  984.
                                           816.                                    234.
                                       17, 822.                                    485.
                                       20, 827.                                    735.
                                       23, 833.                                    986.
                                           839.40                                  236.
                                       29, 845.                                    487.

    For family units with more than 8 members , add $3 005. 80 to annual income for
    each additional member.



    Qptional :   150 and 185 Percent of 1991 Federa Povert Income Guidelies


    Famy Siz                         150% Annua                               185% Anua
                                      Income                                    Income

                                      $ 9, 930                                $12 247
                                       13, 320                                 16, 428
                                           710
                                       20, 100                                     790
                                           490                                 28, 971
                                           880                                      152
                                           270                                      333
                                           660                                      514

        For famy unts with more         th
                                     8 members , add $3390 for 150% and $4181
        for 185 % to anua income for each additional member.


    "Based on income   guidline publishe in the   Federal Re2ister   on 2/20/91.




                                         C - 1

                                       APPENDIX D

                  MEDOLOY OF LO                                    SIT               P.c0
A pursive sample was drawn of eight States representig dierent combinations
the four Federal options to expand eligtoilty for Medicad-covered prenatal cae
(using 100185 percent of the Federal povert level, using presumptive eligtoilty,
guaranteemg contiuous eligibilty, and dropping the aset test). Selected were
Alabama, Arkansas , Florida, Maryland , Pennsylvania, Colorado , New Jersey, and
New Hampshie. The fit      five States have had all four options in place for the
longest tie; Colorado had recently implemented al these expansions; New Jersey
had adopted all options but also had permssion from the Health Care Financing
Admstration to remai at 100                   percent of the Federal         povert level   unti their
legilatue met in    early 1991; and New Hampshie had not yet adopted any optional
expansions.

With each State , we selected a mium of two counties with the highest volume
of Medicad birts     and/or the counties identied by the                     State as havig diculties
deliverig prenatal care. The                            Alabama : Autauga , Jefferson,
                                          19 counties were

Montgomery, and Shelby;           Arkansas : Chicot, Desha               Colorado : Denver
                                                                    , and Philips;

and EI Paso;  Florida    : Alachua and Hisborough;       Maryland : Alleghany and Baltiore
City;New Jersey   : Ocean and Union;         New Hampshire : Hillsboro and Sulvan; and
Pennsylvania : Delaware and Phiadelphia.

Next we asked the State agency responsible for implementig eligtoilty expansions
for Medicad-covered prenatal care to identi their counterpart with each county.
In tur, these local contact were asked to identi supervsors and intake workers for
both presumptive eligIoilty and formal intae/determation. The State agency also
assisted in identig one to thee health care providers in each county who had
seen the most Medicaid-eligIole pregnant women in the prior year. Once the
providers were selected , we origially asked them to identify and arrange intervews
with women who were curently receiving, or had received , Medicaid-covered
prenata cae and who fit the description of a new eligible. (See Appendix A)
However, due to provider diculty in distingushig new eligtoles from AFC-
eligibles, we subsquentl asked to contact only women who had accessed Medicaid-
covered prenata cae though presumptive eligtoilty rather than though AFC
(excludig New Hampshie).

As shown in Table 1 , we intervewed a total of 233 persons. In addition, we
analyzed State and loca policies and procedures and examined available outreach
materials and application forms.




                                                             D-1
                              APPENDIX E

   COVEGE OPTONS FOR PREGNANT WOMEN. AS OF JANUARY 1991

                Presumptive     Dropped        Continuous          Eligibilit as a % of
                 Eligibilty     Asset           Eligibilty           Povert & Date
                                 Test                                  Implemented
Alabama            7/88          7/88             7/88               133%            4/90
Alaska                           1/89             1/89               133%            4/90
Arizona                          1/88             1/88               140%            0/90
Arkansas           4/87          1 0/88           4/87               133%            4/90
California                                                           185%            7/89
Colorado           1/90          6/90             6/90               133%            4/90
Connecticut                      1/89             1/89               185%            1/89
Delaware                         1/88             1/88               133%            4/90
                                 4/87             4/87               185%            6/90
Florida           10/87         10/87            10/87               150%            7/90
Georgia                          1/89             1/89               133%            4/90
Hawaii             1/89          1/89             1/89               185%            1/90
Idaho              1/89          1/89             1/89               133%            4/90
Ilinois            5/90                           4/87               133%            4/90
Indiana            0/88          7/88             7/88               133%            4/90
Iowa               1/90                           7/89               185%            7/89
Kansas                           7/88                                150%            7/89
Kentucky.                        6/89             8/88               185%            7/90
Louisiana          1/89          1/89             1/89               133%            4/90
Maine              0/88          0/88             0/88               185%            0/88
Maryland          7/87           7/87             7/87               185%            7/89
Massachusetts     4/88           7/88             7/88               185%            7/88
Michigan                         1/88             1/88               185%            0/88
Minnesota                        7/88             7/88               185%            7/88
Mississippi                     10/87            1 0/87              185%            1988
Missouri          7/90           7/90             7/90               133%            7/90
Montana            1/91          7/90             1/91               133%            4/90
                                                         (continued on next page)




                                          E­
                        APPENDIX F

               COPAIN OF SELCT 1N11N              fOUN ON

FORM    EUGI FO.               AS OF   JAUAY'''' (POR TO OBR-IO)***
         UNIQUE         JOINT            NOTICE     LENGTH   RACE!
       APPLICATION   PE & FORMAL                             ETHNIC
           FOR       APPLICATION         REFERRAL   FORM     GROUP
        PREGNANT         FORM          FOR OTHER
         WOMEN                            GOVT.
                                        PROGRAMS

                                                     5 PG

                       NO PE                        16 PG      OPT.
                       NO PE                         8 PG      OPT.
                                                     4 PG

                       NO PE

                                                     1 PG
                       NO PE                        18 PG      OPT
                       NO PE                         5 PG

                       NO PE                         6 PG

                                                     1 PG
                       NO PE                         3 PG

                                                    34 PG     OPT.


                                                              OPT.
                                                     2 PG

                                                    10 PG
                       NO PE                        29 PG     OPT.
                       NO PE                         4 PG

                                                     3 PG

                                                     8 PG

                                                     5 PG

                                                    3 PG      OPT.
                       NO PE                        3 PG      OPT.
                       NO PE                        2 PG
                       NO PE                        11 PG

                                                    15 PG

                                                    14 PG     OPT.
                                     APPENDIX G

                  Stte Reported Estimated                Numbers and Cost to

             Serve Non-AFC Medlcald-Covered Women In 1990, 1991

                             Estimated   1#                    Estimated Cost to Enroll
                                 Non-AFDC
            Change     and Deliver PNC to       Change
                        Medicad- Covered
                             Non-AFDC
                            Women
                                 Medicaid- Covered
                                                                   Women (Milions)

                        1990              1991                    1990          1991

Alaba.                 20,               20,                      $35.          $3.
Alaska.                   181                 390                 $13.          $17.      32.
Arzona.                  784                                                    $17.
Arkansa +                000                  300                 $10.          $11.
California +


Colorado        (1)      225                                      $5.
Conneccut +


Delaware                 824                  449      34.        $3.            $7.      119.
DC +                    350                            71.        $1.            $2.      86.
Florida +              20,               29, 395       43.        $9.          $147.      56.
Gergia +               18, 738           28, 542       52.        $56.          $95.      67.
Hawaii +                 258                                      $18.
Idaho                    361                  415                * $14.       * $16.      19.
                                                                 ** $3.       ** $4.
Ilinois +                745                  734      53.        $12.          $18.      41.
Indiana.               12, 061                                    $18.
Iowa +                   000                  500      50.     * $12.         * $18.      50.
Kaas            (1)      000                  000                 $10.          $10.
Kentuck +                972             10.           15.        $3.           $4.       15.
Louisiana +


Maine +                  472                  800      22.                                60.
Maryland +      (1)      (2)             13,           19.      (3) $25.      (3) $31.    23.
                      11, 398

Mahusett
Michigan +               500
Minneota +                               11,                       $2.
tJlt.illip             19, 471

                                                    G - 1

(1) The State report they do not collect data on the number of non-AFDC women served,
    nevertless, might have submitted       estimates.
(2) Cannot distinguish between women     certed presumptively eligible and those women who applied
       direc to the loc welfare offce and were certed eligible without being first found presumptively
       eligible.
(3) Without Administrative     Cots
(4) Average Monthly     II   of Women
(5) Estimates as of 7/9
(6) Estimates August- May      1990

      Includes Federal and State matching funds

      Only Includes State Porton

      CN Only

      Both CN & MN


CN = Catergorically Needy Individuals receiving Federally-supported financial assistace.
MN = Medically Neey Individuals who are eligible for medical but not financial assistace.
NR = States Not Reportng Information

Note:	     Estimates of parcipation may include AFDCeligible women.
           Estimates of cost in some States might have included Federal and State matching funds in
           their estimates. This table gives baseline estimates.




                                                G - 3

                                                    APPENDIX H


                                                            RECE

  Brow       Sarah.              Prenatal Care: Reachinl! Mothers. Reachinl!        Infants. Washigton, D. C.: Intitute of
 Medcie, 1988

 Centers for           Dis
                   ControL  The National Innt Monalitv Surveilance Proiec Public Heath

 Report (Vol. 102 No.2:126-22).


 Chdren        s Defense Fund.             The Health of America s        Children: Maternal and Child Health Data
       k. Washigton, D.                  , 1989.



 Commttee on Government Operations.                        Barrers to Prenatal Care: Can the United States Do More
 with Le? Hous Report                       100574 ,   Union Calendar No. 34 (April 19, 1988). 100th Congres, 2nd
 Sesion. Washigton, D. C.: U. S.                    Governent Priting Offce,         1988.

 Federal Regiter. Washigton, D. C.:                     U. S. Governent Printing Offce (Vol. 56, No. 34:669-61).

 Ginburg, Susnn, Deborah Le- Idema , and                         Ir    Pettigrew.    Desiminl! Evaluations of the
     ansions of Medicaid Coveral!e for Premant Women and Children: Final ReDon. Rockve
 Maryland: Profesional Management Asociates , Inc. , 1989. (prepared for HHS/Asistant Secetary
 for Planng and Evaluation.
Health Care Financig Admitration.      Medicaid Statistical Abstract: Results of the State Medicaid
Al!encv Infant Monalitv Data Survev 1989. Baltimore , Maryland: Bureau of Data Management and
Strategy Offce of Statistics and Data Management, June 5 , 199.

Hi, IanT. and Jane BreyeL                       Cordinatinl! Prenatal Care . National Governors Asociation,
Washigton D. C., 198.

Intitute of Medicie.                   Prevntinl! Low Birthweil!ht. Washington, D. C.: National Acdemy Pres
198:2627.

Kenney, Asta Aida Torres ,                 Nancy Dittes , and Jennifer Macias. . Medicaid
and Newrn Care in America.                                                                Exnditures for Maternty
                                                Familv Planninl! PersocCtives 18 (No. 3, May/June): 103- 110, 1986.

Offce of Evaluation and Inpections (OEI). U. S. Department of Health and Human Servce/Offce
of Inspecor General.                  Acc to Medicaid- Covered Prenatal Care: A Manal!ement Advisorv Report.
OCtober 199.

Offce of Evaluation and Inpeions                       (OEI). U. S.   Department of Health and Human Servce/Offce
of Inpeor             GeneraL         ComDrehensive Perinatal Care Pr02lm . May 199.

Offce of Evaluation and Inpeions                       (OEI). U. S.   Department of Health and Human Servce/Offce
of Inpeor             General.        Lol Manal!ement and ImDlementation Stratel!es to Reduce Infant Monalitv:
A Manal!ement Advirv Report.                        July 1989.


Offce of Technology Asment.      Health Technolol! Ca Study 38: Neonatal Intensive Care for
Low Birthweil!ht Infants: Cots and Effecivenes . Washington, D. C.: Government Printing Offce,
198.


                                                                 H -

                                                       APPENDIX I

            SUMMAY OF HCFA' S COMMENTS TO SPECIFIC RECOMMENDATIONS

                               AND OIG' S RESPONSE




     SUY: REOMMATION la
  Develop a comprehenive outreach strateg.

  HCF A 
    should

  . Work         with PHS, Administration                   Cor   Children and Familes (ACF), State Medicad
       Direcors, and State MCH offcials to                         develop a minimum set       oC standards to enure
       effecive client outreach to heighten awarenes                             oC Medicaid-cvered prenatal cae and to

       taget new         eligibles. Such guidelines should provide                Cor:

              Coordinating Medicaid outreach activities with Materal and Child Health clinics,
             WIC ceter, and community and migrant health center.

             Conducting ongoing, cordinated                        State and locl ad capaign.
             Displaying Medicad benefits and income eligibilty requirements 

                                                                                                    Cor   Medicaid-cvered
             prenatal cae on media materials.

             Using such loctions as churches, housing projec, neighborhood
                                                                                                     health and
             receation ceter,               provider sites where women go           Cor   pregancy testing, and even
             groc stores, laundromats, and shopping center to locte new eligibles.
            Using community residents, women who have recved Medicaid-cvered prenatal cae
            and AIC recpients in the Federl Jobs Opportunity and Basic Skills (JOBS)
            program as outreach worker.

HCFA Comments

The HCF A   doe not concur with the par of the recommendation to develop a minimum
set of stadards. Beuse of the considerable differences among States, and their
Medicad and Maternal and Child Heath progras , we believe it is not appropriate to
pursue the development of sets of stadads for outreach activities. However , we could
collaborate with the Public Heath Service (PHS), Administrtion for Children and
Fames (ACF), State Medicad Directors , and State Matern and Child Heath (MCR)
officials to identify common                    elements of effective tagete and community-wide                outrch
effort, and develop guides for                     State agencies which ilustrte those elements in             pratice.
  The reprt                              tnougn a national advertsing capaign , stress
                   also suggests that HCF A

  the benefits of prenata ca. HCF  doe not concur with ths par of the
  recmmendation. Whe we endorse such a capaign , we believe that it should be
  develope and implemente as par of the national public information and education effort
  for the " Heathy Sta" intiative.


  DIG RemoRse


  Collaboration is an excellent way to achieve common goals. If an agreement ca be
  reached with the National Center for Education in Matern and Chid Heath to kee an
  updte fie of Medicad-cvered prenata cae materials and distrbute them upon request,
  ths approch would encourage State sharng and avoid duplication of effort. The HCF A
  centr offce ,         cordinatig with regional HCF A and PHS sta, would nee to
  periodcay identify, collect, and issue a compendium of information to the National
  Center. State Medicad and Maternal and Child Heath officials would nee to be kept
  appri of avaiable materials and subseuent updates.
 As a par of the 
 Heathy Sta initiative , a national            Heathy Sta National Public
 Information Campaign is being develope in conjunction with the National Ad Council.
 During a five-yea effort , national attention wil be given to the benefits of prenata cae.
 The DIG encourages HCF A to collaborate in the development of the              Heathy Sta
 materials.

 We revise par of our recmmendation to reflect these changes: (See page 21 for

 complete text.)


              Collorae with the Natinal       Center   Jor EduCDn in Matern and Chil Health,   supported by
             PHS, to serve as a reposiory and     diriutn              Stae and nanay-dveloped Medica-
                                                              center Jor
             covered prenata care outreach      materils.   The HCFA centra oJfice, cordnang with regina
             HCFA and PHS staf, woul need to pericay idnt, coUect, and isue a compendum oj
             itonnn     to the Natna Center. Stae Medca and Mllern and Chil Heah offici
             woul need to be kept apprid oj availk maeri and subsequent updes.

             Coordnae outach efforts with the     Health, Start Natinal Pulic Informtin CamDaim . Such
             efforts shoul stss the benejis oj Medica-cvered prena care as preventve healh care
             raher than welfare-related assistance.




                        REOMMATION 2a I
I SUMY:
Simplify and streamline the application procs.

HCFA         should

       Ensure, in reviewng and approving State plans, that States comply with the requirements
       to:
   Along with trsprttion and less strngent eligibilty requirements , the tagete
   populations nee assistace with chid cae even before they ca consider applying.
   Without chid cae, many of the women wil not be able to accss these services. Since
   HCF A is responsible for Medicad eligibilty and does not presently have a way to handle
   ths sitution , the OIG recmmends HCFA tae the lead and collaborate with PHS and/or
   ACF to assure chid cae availabilty durig the application procss.

  We revise par of our recommendation to reflect these changes: (See page 22 for
  complete text.)

            Prmote Stle       efforts to   1)   ensure the newly-d)1eloped appliCDn   fonn are not lengthy and 2)
            expedie processing ti          for forml Medicaid   eligiil detennnans andor implement
            presumptive eligiUit.



            Collorae with PHS and ACF to promote slte efforts to provi for chUd care durig               the
            appliCDn process.


                  Y: REO                         ATION 38 I
 IS
 Develop incentives to increae provider participation.

 HCF A 
   should

      Ensure, in reviewing and approving State plans, that States are complying with the
      requirements to:

           Provide suffcient reimbursement to enure adequate numbers of provider are
           available to deliver Medicaid-cvered prenatal care.

           Spefy the noninstitutional obstetrical payment rates in Medicad plan amendments.
           Provide payment for services rendered by ceified nurse practitioner or
                                                                                     cetified
           family nurse practitioners if they are authorize under State law to perform those
           service.

HCFA Comments an 01G Response

HCF A 
    concurs with this par of the recommendation , subject to a revision of the opening
statement: (See page 23 for complete text.)

           Contnue to ensure, in re)1iewing and approving Stle plans, that Stles are complying with the
           requirements to:




                                                            1- S

                              REOMMATION
  I SUMY:
  Clafy poDey and monitor implementation of Medicaid expanions for prenatal care.

 HCF A 
     should

  . Work closely with State Medicaid directors to identify                   nee for guidance, tecnical

          asistace and          training and develop action plans to provide them.


         Inform States of new legislative options and mandates in a timely manner to allow for
         prompt implementation.

         Conduct locl site visits to monitor the implementation of the Medicaid eligibilty
         expansions. For example, have each    regional offce annually visit a sample of locl
         presumptive eligibilty and formal application sites, as well as service delivery sites.

 HCFA Comments

 HCF A       concurs with ths recommendation. HCF A addresses these topics on an ongoing
 basis. These topics are regular agenda items for the Medicad MCH- Technica Advisory
Group. On a quarly basis , HCFA' s regional offices reprt to centr office , the
progress of individua States in implementing prenata cae intiatives , and any problems
encountered by States in their regions. Also , regarding the loc site visits to monitor the
implementation of Medicad eligibilty expansions , site visits are a par of the current
formal progra management review protocls.


   SUY:                      REOMMATION




Develop data collection systems and evaluation procses to meaure progres of the eligibilty
expansions and future program effects.

HCF A 
     should

. Work with State Medicaid and MCH directors to develop minimum reporting
     requirements to track                participation rates .   Minimal data   elements should include: the
     number of women who could be eligible to recve Medicaid-cvered                         prenatal care; the
     number who have been enrolled by various categories, such as AIC, medically neey,
    and prenatal care only; the number presumptively eligible; and the attrition rate of
    women not completing the application procs.

    Pending the development of such a system to track participation rates, consider using
    probabilty samples to estimate the number of newly eligible women enrolled in Medicaid-
    covered prenatal care.
    points in ti. Ths maes it diffcult to sepate claims for mothers frm those for infants, which, in
    tu, maes it diffcult for HCFA to determe what selVice us and expeditu were for newborn.

    In thesend pagraph under ths heaing, the phr " diffculty in acing " doe not provide a clea
    pictu of the problem involved. State Medicad agencies have
    The " critica   evaluative elements" liste are not
                                                                  ac
                                                                to their own Medicad claims data.
                                                         necMedicad
                                                             to pay clai         and, therefore, ar not included
    in thes rerd. Ths           inormtion would be usfu, but         Sta         agencies ar not currtly
    reui    to collect it.

 Relyig on the   linkage of infant birt , death , and Medicad clams recrds to produce

 evaluative results wil be frustrtig, if not inconclusive. Also , as pointe out by the

 HCF A comments , the State Medicad agencies are not currently required to collect the

 tys of information neeed to meaure outcomes. For thes very reans , DIG urged

 that steps be taen to ensure the neeed data is captured. Also, HCFA' s own study,

  Medicad Statistica Abstrcts: Results of the State Medicad Agency Infant Mortty

 Data Survey: 1989" reports that Medicad agencies have difficulty accessing critica

 evaluative elements. This survey was designed to " determne the availabilty of
 information relate to the heath of pregnant women and infants" (Heath Care Financing
 Admistrtion 1990: 1).
Therefore , DIG continues to recmmend that HCF A assure that critica evaluative
elements are collecte by the States , either though the Medicad agency, PHS or Vita

Statistics. HCF A should cordinate its effort with the PHS Interagency Committee on

Infant Mortity (ICIM, Data and Surveilance subgroup. Ths subgroup, under the

direction of the Centers for Disee Control , is developing a Federa maternal and infant

heath data strtegy, resulting in a Federa Data and Use Bok.


Ba on HCFA comments , DIG revise its recmmendation. (See page 25 for full text.)
        Work with MCH, ACF, State Medica directors and Stae public healh                offici to de,elop
       minium                                   measure the effects
                                                                                   st
                    reportng requirements to                          of the   eligiil expansins on impro,ed
       bith outcomes.        Minin da elements shoul includ: the healh                     partciants
                                                                                         of aU
       (substnce abusers or medically high-ri pregnncy); demogrphic                infonnn       (age, race,
       mDri status, income, family si,         educa1Ule,el, and employment stus); trester enrolld
       for pre1U care; the number of prenata care ris completed; birth outcomes (l,e or dead; and
       bay s birth weight. Also, to a,oUl duplicatin of effort, HCFA shoul coordlUe with the PHS
       Interagency Committee on Infant         Mort
                                                  (ICIM), Data and Su",eilnce subgrup in its
       de,elopment of a Federal matemal and infant heallh dlta straegy.


                     COMMS
I TEHNCAL
In addition to the comments above , HCFA provided severa tehnica comments which                                we
used to make revisions as appropriate. (Te full text of these comments is included in
Appendix J.
                APPENDIX




                DEPARTMENAL COMMEN:
HEAm CA    FINANCING ADMINISTRTION, PUBUC REAm SERVICE,
     ADMINISTRTION FOR CHILREN AND FAMIUES, AND

  THE ASSISTANT SECRETARY FOR PLANING AND EVALUATION





                           J - 1

                                                 " : ,--     " . , " --:  =.".   :==-
                                                                                 -           : -




                                                                                                       TJealth Care
            DEPARTMENT OF HEALTH &. HUMAN                  VICES                                       Financing Administration
                                                  PDIG

                                                  DI.       ,A



              SEP 1   3 1991
                                                  DIG-EI

                                                  DIG-OI
                                                                                                       Memorandum
                                                  AIG-MP
Date

           Gai R. Wilensky,    Ph.D.   "" "\      OGC/IG


From
      Admstrator                  "V         EXSEC

                                                  DAm-s



Subject    OIG Draf     Inpection: "Medicad Exanions for Prenata Cae: State and Local
           Implementation, " OEI- 06-90-00160

           Inpector General

           Offce of the Secreta


               We have reviewed the subject draf inpecton                            which descnoes    State and loca

           effort to implement eligIoilty expanions for Medicad-cered prenatal cae and to

           overcome barers to   accssibilty of prenata cae. Mandatory changes in eligibilty

           for pregnant women were addressed in the report However, the mai focus of the

           report was on the options avaiable to States to increase the accssibilty of prenata

           cae.

               The report found that al States have set their income stadad for povert

          level pregnant women at 133 percent of the Federal Povert Level (FL), as

          required by law. Many States have alo adopted some of the optional eligibilty

          expansions , includig waier of the asset/resource test, contiuous eligIoilty,

          extension of the FPL, and presumptie eligibilty. However, a number of factors

          inbit accss to prenata cae for Medicad-eligible women.


              OIG recommends that HCF A develop a comprehensive outreach strategy,
          streame the application process, develop incenti to increase provider
          parcipation, clar policy and monitor implementation of Medicad expanions for
          prenatal cae, and develop data collecton sytems and evuation processes to
          measure the progress of the eligibilty expanions and futue program effects.
          Although HCFA support the general intent of the report we          concur with            caot
          the detaed recommendations presented by OIG. Our comments on the
          recommendations are attched for your consideration.


              Than you    for the opportunty to review and                           comment on     th report.
          believe that the report is a usefu crtique that we wi use as we contiue to
          implement Medicad' s Maternal and Inant Health Intiatie. Pleae advie us if you
          agree' with our position on the report s recommendations at your earliest
          convenience.

          Attachments
                                                    71 "
                                                v.1 '-I .:J C. .:_ . r

                                                                                             .. J


                                                             :- . 1 

                                                                                 J 2:i.:.:'
                                                                                      \ I

 Page 2


           Though a national ad campaign stress the benefits of Medicad-covered
           prenatal cae as preventive health cae intead of welfare-related
           assistace. Coordinate outreach effort                           with the          Healthy Start
           capaign.
 HCFA Response

 HCF A does not   concur with the             par of       the recommendation to develop a                   minim
set of standards. Because of the considerable dierences among States, and their
Medicad and Maternal and Chd Health program, we believe it is not appropriate
to purue the development of sets of stadards for outreach actities. However, we
could collaborate with the Public Health Servce (PHS), Admtration for Chdren
and Fames (ACF), State Medicad Directors, and State Maternal and Chd
Health (MCH) offcials to identi          elements of effective tageted and
                                                 common

community-wide outreach effort, and develop gudes for State agencies which
ilustrate those elements in practce.

HCF A alo does not concur with the                    par of the recommendation to establish a
centralied resource center. Given                 lited stag and fiancial resources, we                        do
                                          would be cost-effectie. The National
not believe creatig another resource center
Center for Education in Maternal and Chd Health supported by PHS, serves that
fuction. Regional HCF A and PHS                     sta
                                        could identi inovatie outreach
material and practce, and then HCF A' s centr offce could issue a compendium
of inormation though the exiting centrald resource center.

OIG' s recommendation alo                        could
                                     includes that HCF A      that matchig Federal    clar
fuds are avaiable to assist with State effort to conduct client outreach. We
concur with th par of the recommendation. HCF A has frequently clared the
avaiabilty of matchig fuds for outreach though memoradum, policy
interpretations, and technca assistace diected to both Medicad and Maternal and
Chd Health   agencies ,     and we wi contiue to do so.

The report alo  suggests that HCFA    could though a national adverting capaign,
stress the benefits of prenata cae. HCF A does not concur with th par of the
recommendation. Whe we endorse such a capaign we believe that it should be
developed and implemented as par of the national public inormation and
education effort for the ' 'Heathy Sta" intiatie.

Recommendation 2


Simpli and   streame the application process.
 Page 4


 Recommendation 3


 Develop incentives to increase provider parcipation.

 HCFA should:

           Ensure, in revjewig and approvig State plan, that States are complyig
           with the requiements to:

                  Provide sufcient   reimburement to ensure adequate numbers of
                  providers are avaable to      delier Medicad-covered   prenata cae.

                  Specif the nonititutional obstetrca     payment rates in Medicad
                  State plan amendments.

                  Provide payment for servces rendered by certed nure
                  practtioners or   certed fam nure practtioners if they are
                  authoried under    State law to perform those servces.

HCFA   could

           Develop a legilatie   proposal to    gutee temporar Medicad coverage
           unti the end of the presumptie eligIoilty period. Th coverage would
           alay provder apprehensions of havig to contiue cae for women later
           found ineligIole for fu Medicad benefits.

           Develop a legislatie proposal authorig fu Medicad benefits for
           pregnancies deemed at high-rik durg the presumptie eligIoilty period.

           Develop a stadad   defition of "quaed" provder,        designatig the
           mium number of Medicad recipients who must be anualy served.
HCF A Response


HCFA agrees that provder recrtment        retention should be a priority of the
                                          and
Medi   d intiatie.   We are cuently formulatig reguations which implement
obstetrca and   pediatric payment rate requiements.

HCF A defers comment on the two             propos. Al legilatie proposal
                                     legilatie
will be considered with the A- 19 process with HCF
 Page 6




 HCF A should:

           Work with State Medicad and MCH diectors to                 develop   mium
           reportg   requirements to track       participation rates   . Mial data
           elements should include: the number of women who could be eligible to
           receive Medicad-covered prenata cae; the number who have been
           enrolled by vaous categories, such as AFC, medicay needy, and
           prenata cae only; the number presumptiely eligible; and the attrtion
           rate of women not completig the application process.

           Pending the development of such a system  to track paricipation rates
           consider using probabilty samples to estiate the number of newly
           eligtole women enrolled in Medicad-covered prenata cae.

           Work with MCH ACF, State Medicad diectors and State public health
           offcial to develop         mium reportg      requiements      to    measure the
           effect of the eligtoilty expanions on improved bir outcomes. Mial
           data elements should include: the health status of al              parcipants
           (substace abuser or medicay high-risk pregnancy); demographic
           inormation (age,       race, maPta status, income, famy size , educational
           level, and employment statu); trester enrolled for prenata cae; the
           number of prenata cae viits completed;          bir
                                                        outcomes (lie or dead);
           and the baby'     bir
                              weight.

HCFA   could

           Work with MCH ACF, State Medicad diectors and State public health
           offcial to assess the potential of
           medica payments ,
                                                  lig exitig       databases, e.g. , eligibilty,
                                    vita statitics, to measure both parcipation rates and
           outcome measures.

           Plan and seek fudig for a multi-year evuation of the effectieness of
           the eligibilty expanions on improved bir outcomes. The evaluations
           should be strcted to permt separte analysis of women considered at
           high rik (substace abusers ,      medicay high-risk,   etc.
 Page 8


            Providig a technca assistance document on using the two model
            simplied application form. The fist form is under Title V, for use in
            applyig simultaeously under   Head Sta Medicad WIC, MCR,
            communty/migrant/ or homeless health center program. And, the
            second form is for use in applyig for Medicad onl.

 Techncal. Comments

 Page 2	    The report' s char on th page is confing. A complete briefig on how
            eligibilty groups work is not appropriate in th response to your report;
           however, we wi provde thi inormation to your sta upon request.
           The fist sentence of the last pargraph should be altered to read,
            HCFA is contiuig to implement a Medicad Maternal and Inant
           Health Intiatie... " The sentence, as it curently appear, iners that
           is a new intiatie. Alo, with    th  sentence, the Technca Advisory
           Group (TAG) is caed the Medicad/CH TAG. It includes
           representaties of both Medicad and Title V agencies.

Page 12	   Under the headig, ' 'Furer, HCFA and Most States Lack Centraled
           Data.. " one problem that is not addressed is how Medicad identicatioli
           (ID) numbers are assigned to newborn. In some States , Medicad
           numbers are automaticay . gien to newborn; in other States, only inants
           with high expenses are gien numbers; and, in the  remaig States, the
                                               vag
           ID numbers are assigned to chidren at            in tie. Th
                                                         points
           makes it dicut to separate clai for mothers from those for inants,
           which in turn makes it dicut for HCF A to determe      what servce use
           and exenditues were for newborn.

           In the second paragrph under th headig, the phrase "dicuty
           accssing" does not provde a clear picte of the problems involved.
           State Medicad agencies have accss to their own Medicad clai data
           The "crticay evuatie elements" lited are not necessar to pay clais
           and, therefore, are not included in these records. Th inormation would
           be usefu but Medicad State agencies are not curently requied to
           collect it.

Page	      Under the incenties offered by diferent States to encourage prenata
           cae, we suggest that the coupon books issued by Alabama be included.
Page 18	   Based on the figues gien by OIG in the char number 5 should be
           $99 628 200 not $96 642,000. Alo , number 6 should be $81, 055 800 not
           $78 069 600.
(?                                    &.                    . .., '".,-.   "     ..       //
                                                                                      " \:;.         -,..     ,- \,- ,    .\         :;,

" ....w
                                                                               j(t"JJ                                                 IfF
             DEPARME OF REm                HUMA SERVICES                       CL;Lf:-                      Public Helt
                                                                           . ;yJL                                                      C/I/
                                                                                                            Memorandum
              NOV 2 I   199

    From     Assistant Secretary for Health


    Subjec   Office of Inspector General          (OIG) Draft Report " Medicaid
             Expansions for Prenatal         Care: State    and Local Implementation

    To -     Inspector General, OS


                                    mm e n t s on the sub j e c t 0 I G r e po r t . The
             At t a c h e d are the PHS co
             report provides useful information on State and local efforts
             implement eligibility expansions for Medicaid- covered prenatal
             care and to overcome barriers to accessibility and availability
             of prenatal care.


             We concur with the report s recommendation directed to PHS.

             our comments, we identify the actions taken or planned 

             implement this recommendation. In addition , we provide general

             comments concerning the on- going activities of the PHS

             Interagency Committee on Infant Mortality that relate directly to

             the issues addressed in this report.



                                                  ()'h1
                                                  Mason,   M.              , Dr.


             Attachment




                 PDIG


                                                                                                                                    cO:
                                                                                                                                    ;"1'
                AIG-II                                                                                                         '7
                oc/IG
                EXSI                                                                                                            :J -..


                DASB                                                                      :: 2
                                                                                                                                - -: fT
                                                                                               .1.
A model application developed by DHHS and the Departent of
Agricul ture for streamlining applications for child assistance

programs has been approved by both Departents and sent to OMS

prior to publication in the  Federal Reaister


PHS also recommends that the OIG report point out the recent

work of the National Governors' Association (NGA), in

conjunction with HRSA, in the area of Medicaid reforms.

Specifically, approximtely 2 years ago, under a cooperative
agreement with HRSA, NGA prepared reports which indicated that

financing reforms alone were not sufficient to solve problems

of access to the underserved. HRSA currently has a second
cooperative agreement with NGA to examne more recent Medicaid
expansions and reforms. Finally, the report might also note

that SHCDA provides substantial technical assistance to health

centers to help them implement Medicaid reforms.

OIG Recommendation
PHS should use loan repayment and the National Health Service

Corps (NHSC ) recruitment programs to increase the numer of
doctors, nurses, and other health professionals serving

pregnant women.


PHS Comments


We concur. The NHSC program currently meets the intent of this
recommendation. The NHSC  specifically targets community- based
systems of care in medically undeserved areas for the placement
of health professionals who become available through its
scholarship program, loan repayment program, and the
recrui tment of volunteers. A high percentage of the patients
seen in these primry health care programs are pregnant women
and children.
The mission of the NHSC is to provide health personnel to urban
and rural communi ties and underserved or unserved populations
with the greatest need. NHSC' s goal is the improvement of
access to primry   care services in these communities and
populations.
Essentially, the NHSC has the mission of elimnating federally
designated health professional shortage areas (HPSA) throughout
the United States. To this end, the NHSC seeks to provide an
adequate supply of   primry care and mid- level health
professionals to communities, special population groups and
public or private non- profit health facilities in HPSAs.
The Nurse Practitioner and Nurse 
 dwifery Program awarded
$6, 059, 033
           in FY 1990 for 36 projects that support preparation
of nurses who are able to serve as nurse midwives, obstetrical
and gyecological practitioners, and pediatric practitioners.
In all cases, these nurses focus on patient teaching, guidance,
counseling and health screening acti vi ties.
PHS funds have been used to support traineeships to 
        prove
admnistration and competency of personnel in maternal and
child health programs. In FY 1990, $187, 241 was awarded for
traineeship support in maternal and child health.

OTHER COMMENTS

Regarding the recommendation directed to HCFA and the States

that they develop a comprehensive outreach strategy, caution

must be exercised in emphasizing outreach acti vi       ties. Outreach
efforts have to be backed up by adequate system capacity.

                                                       &JJti\IS            ERVICES /
                                                                                    g- .. ,   . ..   ..             ;:-
                                                                                                          /;':) : \ :-:~~~ , !-:'       -..
                                                                                                                                       ..



                                                                                                                                office of
                                                                                                                                            . ....,-
                                                                                                                                         . ..
                                                                                                                                            :           .;
                                                                                                                                                   \ :. :: '" -
                                                                                                                                                  .. : --. ..:..-

                                                                                                                                                Instor Genal
                                                                                                                                                             - . -'-        "'".....




Date
             091
       ( J". Kuserow
             v DIG-   I0
                                                                Pm

                                                                DIG-AS

                                                                DIG-EI

                                                                           O!
                                                                                               t/



                                                                                               I/
                                                                                                                                            moran
From Inpector Genera
                                                                AIG-MP
         Richar



                                                                EX SEC
                                                                OGC/IG




                                                                DAT
Subiect OIG         Dra Report "Medicad Exanions for Prenata Cae                                                      State and Loca                   f.i
         Implementation, "              OEI-090-0160
To Mar 

        I"    SlS
                     Gerr - -



               tat Secre
             Plang and Evauation
                                   TV
                                        11    Jet    "YtA iQ;LA Lo/
                                                                      J)
                                                                           -,t                                     OST -  is:! l                         f?(

                                                                                                                                                                    ;.CdJ
                                                                                                                                                                    ' . I



                                                         SEP 2 5                 /991          t:                                                                 2.­
                                                                                                                                                                  ; i"1 I

        Attached for your reew and comment is a copy of our draft)nspecti
                                                                          l!:report :;;
        Medicad Exanions for Prenata Cae: State and Loca Implemenultion.
                                                                                                                                                       3.
        Our inpecton              and loca effort to implement eligI"bilty exanions
                                 descn"bes State
        for Medicad-cered prenata cae and to overcome barers to accibilty      and

        avaabilty of prenata cae. We found tht,                                          Janua
        endorsed the optiona
                                                    as of      1991,    States have

                              eligI"biIty exanions. Howev, signcat prblems prevent

                                                                                                                       ma
        newly eligIcle women from receivg Medicad-cered prenata cae:
                                                                       inadequate

        client outreach, a cubersome application proce dicuty recrtig
                                                                        prenata cae

        providers, problems implementig presptie eligIciIty,                                        stag
        need for more tiely inormtion and
       Admitrtion (HCF A). Alo, data collecton is
                                                                trgshortges and the

                                                    frm the Heath Cae Fmacig

                                                                                        incient to meae progress

       and outcomes some   States ar inovtiely implementig the exanions and a

       1 percent decreae in neonata intensive ca ca potenti reduce Medicad
                                                                            costs
       by over $78 mion.
       We recommend actons by HCFA, the Public Heath       Servce and the States to 

       develop a comprehensive outreach   strtegy, sipli and stre=mlin e the application

       process, develop incenties to increase provder parcipation,
       monitor implementation, develop data collecton sytems and
                                                                          policy and
                         cl
                                                                                                             evuation processes                         to

       measure progres and outcomes and establih a State centrd authority to fully

       implement the exanions.


       We would apprecite receivg
       the date of thi           mf:::oradum

                                                    your comments on                    the   dr report withi 30 days of

       If you have any questions or comments about
       your sta contact Mata Zita at FT 269-2678.

                                                   report                          th               plea        e ca me or have


       Attachment
